U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Clinton v. United States, No. 20-6807
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
30, 2020, and placed on the Court’s docket on January 8, 2021. The response of the United
States is now due, after one extension, on March 10, 2021. We respectfully request, under Rule
30.4 of the Rules of this Court, a further extension of time to and including April 9, 2021, within
which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-6807
CLINTON, JAMAL, AKA MORELESS
USA

JESSE M. SIEGEL
THE LAW OFFICE OF JESSE M. SIEGEL
THE WOOLWORTH BUILDING
233 BROADWAY
SUITE 707
NEW YORK, NY 10279
212-207-9009
JESSEMSIEGEL@AOL.COM

